U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

December 14, 2020

Cordarrius Bonds v. USA,
S.Ct No. 20-6373

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
13, 2020 and placed on the docket on November 18, 2020. The government’s response is due on
December 18, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6373
BONDS, CORDARRIUS
USA

JENNIFER NILES COFFIN
FEDERAL DEFENDER SERVICES OF EASTERN
TENNESSEE
800 S. GAY STREET
STE. 2400
KNOXVILLE, TN 37929
865-637-7979
JENNIFER_COFFIN@FD.ORG

